OFFICE OF INSPECTOR GENERAL


AUDIT OF ASSISTANCE TO
INTERNALLY DISPLACED
PERSONS AND VULNERABLE
GROUPS FINANCED BY
USAID/COLOMBIA
AUDIT REPORT NO. 1-514-11-002-P
JANUARY 26, 2011




SAN SALVADOR, EL SALVADOR
    Office of Inspector General


    January 26, 2011

    MEMORANDUM

    TO:             USAID/Colombia Mission Director, S. Ken Yamashita

    FROM:           Regional Inspector General/San Salvador, Catherine Trujillo /s/

    SUBJECT:        Audit of Assistance to Internally Displaced Persons and Vulnerable
                    Groups Financed by USAID/Colombia (Audit Report No. 1-514-11-002-P)

    This memorandum transmits our final report on the subject audit. We have carefully
    considered your comments on the draft report in finalizing the audit report and have
    included your response in appendix II of the report.

    The report contains five recommendations intended to improve the effectiveness and
    implementation of USAID/Colombia’s assistance to internally displaced persons and
    vulnerable groups.      Management decisions have been reached for all five
    recommendations. M/CFO/APC will record final action on these recommendations when
    planned actions have been completed.

    I want to express my appreciation for the cooperation and courtesy extended to my staff
    during the audit.




U.S. Agency for International Development
Embajada Americana
Urb. y Blvd Santa Elena
Antiguo Cuscatlan, Depto. La Libertad
San Salvador, El Salvador
Tel. (503) 2501-2999—Fax (503) 2228-5459
www.usaid.gov/oig
CONTENTS
Summary of Results ................................................................................................... 1

Audit Findings ............................................................................................................. 3

     USAID/Colombia Lacks An Indicator
     That Measures Progress Toward Stabilization ....................................................... 3

     USAID/Colombia Lacks A Qualitative Measure For Institutional Strengthening .... 4

     USAID/Colombia Is Not Meeting Its Stated Income Generation Goals................... 5

     USAID/Colombia Reported Inaccurate Performance Data ..................................... 7

Evaluation of Management Comments ................................................................... 10

Appendix I – Scope and Methodology .................................................................... 12

Appendix II – Management Comments ................................................................... 14

Appendix III – IDP Program Coverage Maps .......................................................... 23
SUMMARY OF RESULTS
Colombia’s internal armed conflict including left-wing guerillas, paramilitaries, and
government security forces has been waged for several decades. This conflict has left
Colombia with a large number of internally displaced persons (IDPs) resulting in
Colombia having the second or third largest displaced population in the world. As of
mid-2009, more than 2.3 million IDPs were included in the Government of Colombia’s
(GOC) official registry and more than 240,000 had filed claims with the justice system as
victims of major conflict crimes. The GOC, international organizations, and civil society
remain concerned about continuing levels of displacement and how to effectively
respond. USAID/Colombia’s program to assist IDPs and other vulnerable groups 1
began in 2001. The program focuses on efforts to stabilize and reintegrate the victims of
violence back into civil society, as well as to provide institutional strengthening.

Under the IDP program, USAID/Colombia awarded a 6-year agreement totaling
approximately $73 million to the Pan American Development Foundation (PADF) in
2005. In 2007, the mission awarded a 4-year agreement totaling almost $43 million to
the International Organization of Migration (IOM). These two agreements represent
close to 87 percent of the IDP program and were the focus of this audit. As of August
31, 2010, PADF and IOM’s combined obligations and expenditures came to about $100
million and $93 million respectively. Through the implementing partners PADF and IOM,
the program provided coverage in 12 regions of Colombia with 12 regional offices (see
figure 1 and figure 2 in appendix III). To reach the program goals, the partners are
providing both direct and indirect assistance to IDPs and GOC officials and private
sector and nongovernmental organizations responsible for assisting IDPs. Direct
assistance includes food security programs as well as job training and job placement
services. Indirect assistance includes facilitating access to existing health, education,
and housing services provided by the state. The partners are also responsible for
strengthening the national, departmental, and municipal entities that provide these
services.

The objectives of the audit were to determine if USAID/Colombia’s assistance to
internally displaced persons and vulnerable groups was achieving its main goals which
are to stabilize and reintegrate IDPs back into civil society, and if the reporting on the
progress of its activities was providing stakeholders with complete and accurate
information.

The audit found limited evidence that USAID/Colombia’s IDP program was achieving the
main goal of stabilizing and reintegrating IDPs back into civil society. Currently,
USAID/Colombia has no performance measure established or used by USAID/Colombia
to measure progress toward IDP stabilization. While the IDP program is providing
support in income generation and access to housing, public education, and public health
to various IDPs (the mission reported that 276,148 beneficiaries received at least one of

1
  Other vulnerable groups include traditionally poor populations in IDP receptor communities,
persons with disabilities, and those who are affected by violence or are particularly prone to suffer
the effects of the conflict in USAID's target areas. The latter group includes ethnic minorities,
women head of households, youth and children. This audit report will use the term internally
displaced persons (IDPs) when referring to both displaced persons and other vulnerable groups.


                                                                                               1
these services in fiscal year 2009), there is limited evidence of progress toward the
overall goal because USAID/Colombia does not have a clear achievable definition to
determine when stabilization or improved quality of life has occurred (page 3).

A similar problem was noted with USAID/Colombia’s institutional strengthening activities.
Although USAID/Colombia tracks how many people have received institutional
strengthening assistance, a qualitative measure that tracks the improvement in institutional
capacity, or lack thereof, is not yet in place (page 4).

The audit also identified that the mission fell short of the fiscal year (FY) 2009 targets set
for income generation indicators and does not appear to be on track to meet FY 2010
targets despite the importance of this service (page 5).

Finally, the audit determined that performance data reported in the mission’s
Performance Plan and Report (PPR) were materially incorrect for three indicators
reviewed. Specifically, indicators were overreported for number of people benefiting
from U.S. Government support (29 percent), licit jobs created (33 percent), and families
with adequate housing (58 percent) (page 7).

The audit team recommends that USAID/Colombia:

   Define and develop its own indicator to determine progress achieved towards the
    main goal of stabilization or significant improvement in the quality of life of
    beneficiaries (page 4).

   In coordination with its implementing partners, work with the Constitutional Court and
    the Government of Colombia to develop a Government of Colombia definition of an
    intermediate level of stabilization of displaced and vulnerable persons (page 4).

   Develop a qualitative measure that captures improvements of the institutions
    receiving institutional strengthening and the impact (page 5).

   Reevaluate income generation efforts to refocus program indicators and activities on
    income stabilization and incorporate characteristics specific to displaced and
    vulnerable populations (page 7).

   Adjust its future performance plan and report to correct inaccuracies in any reported
    results in the FY 2009 Performance Plan and Report (page 9).

The audit’s scope and methodology are described in appendix I.

USAID/Colombia agreed to implement the recommendations and has developed specific
plans to address them.        Management decisions have been reached on all five
recommendations. Our evaluation of management comments is provided in the Evaluation
of Management Comments section of this report (page 10), and USAID/Colombia’s
comments in their entirety are included in appendix II.




                                                                                            2
AUDIT FINDINGS
USAID/Colombia Lacks an
Indicator That Measures
Progress Toward Stabilization
The ultimate goal of the program for internally displaced persons (IDPs) and other
vulnerable groups2 is that displaced persons are successfully reintegrated into society.
Successful reintegration is achieved by providing access to an integrated package of social
services. Since true reintegration is difficult to achieve (displaced persons might never feel
truly reintegrated after having fled their community and land) the overall goal of the USAID
program is best described as stabilization or a significant improvement in quality of life. To
assess progress toward this goal, USAID Automated Directives System (ADS) 203.3.4
indicates that performance indicators are used to observe progress. To be effective,
indicators should allow missions to systematically monitor the achievements of program
operations, collect and analyze performance information to track progress toward
planned results, use performance information and evaluations to influence
decisionmaking and resource allocation, and communicate results achieved.

Currently, USAID/Colombia has no performance measure established or used by
USAID/Colombia to measure progress toward IDP stabilization or improved quality of
life. While the IDP program is providing support in income generation and access to
housing, public education, and public health to various IDPs (the mission reported that
276,148 beneficiaries received at least one of these services in fiscal year [FY] 2009),
there is limited evidence of progress toward the overall goal because USAID/Colombia
does not have a clear achievable definition to determine when stabilization or improved
quality of life has occurred. While it is generally agreed that a displaced person needs
access to the above services, the mission’s FY 2009 Performance Plan and Report (PPR)
noted that there is no process to determine when an IDP is reintegrated and “graduates”
from the Government of Colombia (GOC) assistance program. Therefore, contingent on
the availability of funds, these IDPs receiving services could be indefinite beneficiaries of
the GOC program.

USAID/Colombia has not developed an appropriate indicator because USAID/Colombia, the
Constitutional Court of Colombia and the GOC have yet to develop an actionable definition
of reintegration. The GOC’s attempt to develop a definition led to criteria consisting of 45
separate indicators that are required for reintegration. Most agree that this set of criteria,
although desirable, is not practical given the realities on the ground and that an intermediate
level showing significant improvement in the quality of life is needed in the meantime.

Both USAID/Colombia and implementing partner officials agree that USAID should develop
an indicator that better tracks a significant improvement in the quality of life of IDPs and that
an intermediate level of progress defined by the GOC and the Constitutional Court is
needed. Realizing this, USAID is in the process of providing technical assistance to the
Constitutional Court in assessing the GOC’s progress toward reintegration of IDPs.

2
  For the purposes of this report, the audit will use internally displaced persons (IDPs) when
referring to both displaced persons and other vulnerable groups.


                                                                                           3
However, to be effective, the technical assistance should include work on a GOC definition
of an intermediate level of progress. Technical assistance should include goals and
deliverables that track the development of a definition of an intermediate level of progress.

Without a performance indicator that goes beyond provision of individual services,
USAID/Colombia cannot determine whether it achieved the main goal of stabilization or
significant improvement in the quality of life of IDPs. This makes it difficult for
USAID/Colombia management to use performance information to influence
decisionmaking on where to dedicate resources and to effectively communicate results
achieved. For example, the audit was able to anecdotally determine that certain IDPs
interviewed no longer considered themselves displaced. In some interviews, IDPs said
they felt their situation had improved significantly and they felt stabilized.
USAID/Colombia cannot communicate these higher level successes with its current
program measures.      To address these issues, this audit makes the following
recommendations:

   Recommendation 1. We recommend that USAID/Colombia define and develop
   its own indicator to determine progress achieved towards the main goal of
   stabilization or significant improvement in the quality of life of beneficiaries.

   Recommendation 2. We recommend that USAID/Colombia, in coordination
   with its implementing partners, work with the Constitutional Court and the
   Government of Colombia to develop a Government of Colombia definition of an
   intermediate level of stabilization of displaced and vulnerable persons.


USAID/Colombia Lacks a
Qualitative Measure for
Institutional Strengthening
According to USAID/Colombia, institutional strengthening of local and national public
and private-sector entities is an important part of its IDP program. To illustrate, the
International Organization of Migration (IOM) agreement says that an emphasis shall be
given to institutional strengthening activities, supporting local grassroots organizations
and GOC agencies to improve the delivery and impact of assistance to IDPs. The idea
was to strengthen national, departmental, and municipal entities that are responsible for
providing services to IDPs. According to ADS 203.3.4, performance indicators are used
to observe progress and to measure actual results compared with expected results, and
help answer how or whether a mission, office, or assistance objective team is
progressing toward its objective(s). ADS 203.3.4.2 further states that when choosing
performance indicators, the assistance objective teams should consider questions for
each result and year of the assistance objective, such as, what will be different as a
result of the USAID projects and activities, how will the mission be able to recognize the
desired difference, and what will be different at the end of the current year.

USAID/Colombia lacks a qualitative measure to assess whether resources dedicated to
institutional strengthening are indeed impacting the targeted sectors (i.e. the local and
national public and private-sector entities).     Instead, USAID/Colombia measures
progress by tracking the number of beneficiaries that benefited from these activities.



                                                                                           4
This type of indicator measures only outputs. 3 The fact that USAID/Colombia provided
assistance to an IDP to acquire the identification necessary to gain access to the health
sector, does not directly imply that that the local institutions responsible for assisting the
population have been strengthened.

The mission reported that 59,940 IDPs benefited from institutional strengthening,
surpassing its FY 2009 target. Some institutional strengthening activities outlined in
implementing partner agreements were vague, whereas other activities had qualitative
goals such as “maximize efficiency and effective use of existing GOC resources” and
“improve the quality of services provided.” Counting the number of beneficiaries alone
does not measure the progress against these goals.

USAID/Colombia has not developed and put in place a qualitative measure allowing one
to determine if the institutional strengthening being carried out is having an impact. A
qualitative measure such as a survey of IDPs would demonstrate if current institutional
strengthening activities are having the desired effect. The audit team found that some
results identified by the partners as institutional strengthening (such as number of IDPs
receiving identification cards) would have been more accurately described as assistance
in accessing government services. Mission personnel agreed that some of these
activities did not clearly reflect institutional strengthening and that they would be
addressing the issue with both partners in the next agreement extension. Furthermore,
during interviews with local officials, potential institutional strengthening-related needs
were identified such as conflict resolution training.

Without qualitative measures, the mission cannot determine the full impact of the
program. The purpose of the institutional strengthening component is to increase the
capacity of the GOC to provide services to IDPs. During interviews with IDPs the audit
team was told that the ability of local civil servants in Cali to provide services did
marginally improve. This is anecdotal and was not easily attributable to USAID’s
assistance: a more systematic approach could provide better data of the impact of
USAID assistance. For example, a study or survey of IDPs could capture information on
improvements in institutions that benefited from institutional strengthening. However, no
indicator or qualitative measure is currently in place to determine if the capacity of
institutions has improved or not.

    Recommendation 3.           We recommend that USAID/Colombia develop a
    qualitative measure that captures improvements of the institutions receiving
    institutional strengthening and the impact.


USAID/Colombia Is Not Meeting
Its Stated Income Generation Goals
One of the most important components of the IDP program is to assist beneficiaries with
income generation. This includes employment generation as well as job training.
Income generation is a key component of both the IOM and Pan American Development

3
 ADS 200.6 defines an output as a tangible, immediate, and intended product or consequence of
an activity within USAID control. Examples of outputs include people fed, personnel trained,
better technologies developed, and new construction.


                                                                                            5
Foundation (PADF) agreements. In both partners’ 2007 agreement modifications, the
income generation component accounts for more than half (52 percent) of the program
activities funding. This is a significant increase from the 36 percent designated in the
2005 agreement. In addition, the 2010 Operation Plan Summary Report for Colombia
states “income generation and housing have been identified as the two most critical
needs of the displaced population. Hence, USAID’s investment in social service delivery
will continue to be centered around these two components…” Income generation is a
key aspect of stabilization to ensure long-term self-sufficiency. The current performance
indicators in place for income generation are “licit jobs created” and “beneficiaries
graduating from vocational training”. The FY 2009 targets set for these indicators were
9,779 and 8,528, respectively.

Although the percentage of USAID/Colombia IDP program funding dedicated to income
generation has increased from 36 to 52 percent, and income generation is clearly a
program priority, the mission fell short of the FY 2009 targets set to measure progress in
income generation (see table 1). In addition, based on data available for the first two
quarters of FY 2010, USAID/Colombia does not appear to be on track to meet targets.

Table 1. USAID/Colombia’s FY 2009 and FY 2010 Income Generation Results

                             Target       Actual     Target           Reported FY 2010
        Indicators
                            FY 2009      FY 2009    FY 2010      st
                                                                1 Quarter      2nd Quarter
 Licit Jobs Created          9,779        1,833      14,198           339        1,074
 Beneficiaries Receiving
 Vocational Training         8,528        1,884      15,526           633         436

Even though the program did not define when stabilization or significant improvement in
an IDP’s quality of life occurs notwithstanding, the audit team found that of the services
provided to the IDPs, almost all of the beneficiaries interviewed considered income
generation to be the most important component in terms of stabilization. However,
income assistance, as defined by the indicators in place, is reaching relatively few
beneficiaries: of the 276,148 beneficiaries reported in FY 2009, only 1,833 received job
assistance and 1,884 received vocational training.

Among other things, implementing partners indicated that targets were not met because
certain types of income generation activities are not accounted for under the current
definition of licit jobs created. For example, implementing partners are helping IDPs gain
part-time employment, supporting small home-based businesses, and agricultural or
seasonal work. These activities are not incorporated in the current indicators for income
generation if they are not under a contractual agreement. The implementing partners
are also promoting regional and local marketing events to stimulate contact between
beneficiaries and markets, the results of which are not directly reflected in the current
income generation indicators. In addition, the partners reported that many of these
projects are executed in partnership with GOC entities which sometimes leads to project
startup delays and therefore delays in service delivery and registration.

Most IDPs are rural inhabitants. Many are subsistence farmers who have been
separated from their land and do not have sufficient skills to gain employment in urban




                                                                                             6
areas. 4 With this population the goal is stabilization. The current licit jobs created
indicator under USAID/Colombia’s IDP program is better suited for beneficiaries who
have existing skill sets but require additional capital and/or further technical training to
leverage those skills and increase income. According to an implementing partner’s
quarterly report, many displaced individuals are not qualified to get a full-time
professional job. Given these realities, USAID/Colombia’s determination of success with
regards to income generation should include a wider range of activities. For example,
individuals may not have a traditional 40-hour-per-week job, but they may be able to
support themselves by producing and selling goods. Others have been returned to their
place of origin and are able to sustain themselves by farming.

By not achieving the income generation targets, USAID/Colombia is not likely to reach
its overall goal of stabilization of IDPs. This is because while a definition of stabilization
or reintegration is not yet available, based on discussions with beneficiaries, local
officials, USAID/Colombia, and expert opinion, a stable source of income is a key factor
in determining if a displaced person has stabilized. By limiting the definition of income
generation to vocational training and licit jobs created, USAID/Colombia may not be
focusing on efforts that could be at least as beneficial as traditional employment.

    Recommendation 4. We recommend that USAID/Colombia reevaluate income
    generation efforts to refocus program indicators and activities on income
    stabilization and incorporate characteristics specific to displaced and vulnerable
    populations.


USAID/Colombia Reported
Inaccurate Performance Data
According to guidance issued by the Office of the Director of U.S. Foreign Assistance for
preparing the FY 2009 PPR, missions were required to provide performance information
against targets for indicators, as well as a narrative description of the program status.
ADS 203.3.2.1 states that one of the principal steps in performance management is
communicating results achieved or not achieved, to advance organizational learning and
demonstrate the Agency’s contribution to achieving the overall U.S. Government foreign
assistance goal. The performance information reported in the annual PPR is not only
one of the ways USAID communicates results, but it also helps meet statutory
requirements and management needs in compliance with the Government Performance
and Results Act of 1993. 5 In addition, because of the escalation of interest related to
performance and performance management by the administration, Congress and public
groups the performance information helps to:

   Define best practices and lessons learned from field activities
   Inform current and out‐year budget decisions
   Respond to congressional and public inquiries
   Construct required special reports

4
  According to indigenous leaders interviewed by the audit team, the situation is even more
critical for indigenous communities that have been displaced. Return to their place of origin and
way of life is of utmost importance to this population.
5
  Public Law 103-62


                                                                                               7
     Prepare speeches and testimonies for State and USAID principals
     Aggregate foreign assistance performance for State and USAID principals.

For that reason, it is important that missions comply with ADS 203.3.5.1, which states
that data should be sufficiently precise to present a fair picture of performance and
enable management decisionmaking at the appropriate levels.

In its FY 2009 PPR, the mission communicated its results on six indicators. Table 2
presents the four indicators that the audit team reviewed. On the basis of the indicator
documentation and the guidance provided to the missions, the audit team judged
USAID/Colombia’s FY 2009 internal reporting data for the indicators reviewed to be
generally accurate.       The mission maintained generally adequate supporting
documentation, usually developed by implementing partners, to justify each reported
number. In addition, the mission had completed a data quality assessment of each data
element within 3 years, as required by ADS 203.3.5.2.

Table 2. USAID/Colombia’s FY 2009 Performance Plan and Report Indicators

                                                                                   Percentage
                                                               Internal Mission
                                          Reported in PPR                          Difference
                                                                     Data
                                                                                    Achieved
                Indicator
                                                                                    Mission
                                         Target    Achieved   Target    Achieved       and
                                                                                      PPR
    Number of people benefiting from
    U.S. Government-supported social
    services                             292,232    357,209   252,293    276,148           29
    Persons with access to health care    74,489    132,060    74,489    131,899         0.12
    Licit jobs created                    14,274      2,442     9,779      1,833           33
    Families with adequate housing         3,786      1,420     2,382        899           58

However, the mission inaccurately reported the actual results achieved in the FY 2009
PPR for three of the four indicators reviewed. Specifically, the mission overstated the
number of people benefiting from U.S. Government support by 29 percent, licit jobs
created by 33 percent, and families with adequate housing by 58 percent.

The overreporting in the FY 2009 PPR was due to a data entry error. USAID/Colombia
keeps track of the standard indicators internally on a quarterly basis, but transposition
errors were made when this information was entered into the FY 2009 PPR. However,
the mission itself did have accurate information on these indicators in an internal
spreadsheet. USAID/Colombia is aware of the data entry errors and is seeking to
determine when the PPR process allows for corrections.

Without more accurate reporting in the PPR, stakeholders may receive an incomplete
understanding regarding the status of the program and the difficulties faced by the program.
Overreporting of certain components of the program might lead to a different approach in
planning future activities.   The effect in this case is lessened by the fact that
USAID/Colombia officials did have accurate information available on the program internally.

To address this problem, this audit makes the following recommendation:




                                                                                           8
Recommendation 5. We recommend that USAID/Colombia adjust its future
performance plan and report to correct inaccuracies in any reported results in the
Fiscal Year 2009 Performance Plan and Report.




                                                                                     9
EVALUATION OF
MANAGEMENT COMMENTS
In response to the draft report, USAID/Colombia agreed to implement and has
developed specific plans to address all five recommendations.

Regarding Recommendation 1, the draft report audit recommended that
USAID/Colombia define and develop its own indicator to determine progress achieved
toward the main goal of stabilization or significant improvement in the quality of life of
beneficiaries. The mission concurred with the recommendation and has already
incorporated a new indicator into the fiscal year (FY) 2011 work plans of both program
implementers. The indicator is: numbers of families (and persons) who have received
and benefited from an integrated package of essential stabilization assistance (to include
income generation, housing, education, and health assistance and at least one type of
complementary assistance such as psycho-social assistance). This will be used as a
proxy indicator for the achievement of an adequate standard of living as an intermediate
level of progress toward stabilization. On the basis of the mission’s described actions a
management decision has been reached on Recommendation 1.

Regarding Recommendation 2, the draft report audit recommended that
USAID/Colombia, in coordination with its implementing partners, work with the
Constitutional Court and the Government of Colombia (GOC) to develop a GOC
definition of an intermediate level of stabilization of displaced and vulnerable persons.
USAID/Colombia concurred with the recommendation. The mission, its implementing
partner, the Court, and the GOC have developed and begun to implement a project to
provide the venue for dialogue and an effective methodology for the development of
more precise criteria, definitions, and metrics related to the stabilization of displaced and
vulnerable populations. The project began in November 2010 and will be completed in
December 2011. According to mission officials, the final result of this project will be an
amicus brief on innovative ways to measure the GOC response in providing sustainable
solutions to the vulnerable condition of the displaced population as related to four key
areas: land, displacement prevention and protection, housing, and income generation.
On the basis of the mission’s described actions, a management decision has been
reached on Recommendation 2.

Regarding Recommendation 3, the draft report audit recommended that
USAID/Colombia develop a qualitative measure that captures improvements of the
institutions receiving institutional strengthening and the impact. The mission concurred
with the recommendation and has recently developed new indicators to measure
institutional strengthening interventions at the local level. The new indicators have been
incorporated into the FY 2011-12 work plans of the program’s implementing
mechanisms and will serve as proxy indicators of the qualitative increase in local
government capacity to respond to displaced populations relocated in their
municipalities. On the basis of the mission’s described actions, a management decision
has been reached on Recommendation 3.




                                                                                      10
Regarding Recommendation 4, the draft report audit recommended that
USAID/Colombia reevaluate income generation efforts to refocus program indicators and
activities on income stabilization and incorporate characteristics specific to displaced
and vulnerable populations. USAID/Colombia concurred with the recommendation.
USAID/Colombia has advised Internally Displaced Persons (IDP) implementers to
augment income generation activities with a longer period of intervention (as
recommended by a March 2010 assessment). In addition, the mission’s new IDP
program for the strategic period through 2014 is currently under design. As a result of
the reevaluation of income generation efforts, the new program will emphasize stable
income as a key component of achieving socioeconomic stabilization for IDPs. On the
basis of the mission’s described actions, a management decision has been reached on
Recommendation 4.

Regarding Recommendation 5, the draft report audit recommended that
USAID/Colombia adjust its future performance plan and report to correct inaccuracies in
any reported results in the Fiscal Year 2009 Performance Plan and Report (PPR). The
mission concurred with the recommendation. However, as USAID guidance provided in
the FY 2009 PPR Guidance Document (page 4, section 7) states that making changes
to previous years’ data is not permitted, concerted effort was made to ensure that FY
2010 results were accurate, based on the internal information collected in
USAID/Colombia. In addition, USAID/Colombia is currently reviewing its internal
monitoring and evaluation system. Furthermore, to increase accuracy and efficiency of
data collection and reporting and ensure data quality, the Office of Vulnerable
Populations is developing a scope of work for a full-time staff position for a monitoring
and evaluation specialist. This person should be in place by the third quarter of FY
2011. On the basis of the mission’s described actions, a management decision has
been reached on Recommendation 5.




                                                                                      11
                                                                               APPENDIX I



SCOPE AND METHODOLOGY
Scope
The Regional Inspector General/San Salvador conducted this performance audit in
accordance with generally accepted Government auditing standards 6 . Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit
objectives. We believe that the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objectives. The purpose of the audit was to
determine whether (1) USAID/Colombia’s assistance to internally displaced persons
(IDPs) and vulnerable groups is achieving its main goals and (2) whether
USAID/Colombia’s reporting on its IDPs and vulnerable groups’ activities provided
stakeholders with complete and accurate information on the progress of the activities
and the results achieved. Audit fieldwork was conducted at USAID/Colombia and
implementing partners’ offices in Bogotá, Cali, Medellín, and Cartagena from August 16 to
20, and September 6 to 18, 2010.

The audit covered the period October 1, 2008, through August 31, 2010, and focused on
the implementation of assistance to IDP programs implemented by the International
Organization for Migration (IOM) and the Pan American Development Foundation
(PADF). In planning and performing this audit, we assessed the mission’s controls
related to its IDP activities. The management controls identified included the mission’s
Activity Approval Document, program progress reports, strategy documents, Program
Assessment, and the fiscal year (FY) 2009 self-assessment of management controls as
required by the Federal Managers’ Financial Integrity Act of 1982 7 . We also reviewed
the program results reported by both IOM and PADF for FYs 2009 and 2010.

Methodology
To determine whether the IDP program is achieving its main goals, the audit team
interviewed USAID/Colombia staff to gain an understanding of the program’s history and
status. Based on discussions with mission officials and review of IDP program
materials, it was determined that the audit would focus on programs implemented by
IOM and PADF as they are providing similar types of assistance and are receiving close
to 87 percent of USAID/Colombia’s IDP program funding. We judgmentally selected 7 of
the 21 indicators that USAID/Colombia uses to determine progress as well as 4 of the 8
main indicators in the FY 2009 Performance Plan and Report 8 reported to stakeholders
in Washington.

The audit team reviewed relevant agreements, modifications, program descriptions,
progress reports, and mission operating plans.      The audit reviewed the work
accomplished as reported in the implementing partners’ reports and compared actual

6
  Government Auditing Standards, July 2007 Revision (GAO-07-731G)
7
  Public Law 97-255, as codified in 31 U.S.C. 3512
8
  The Performance Plan and Report reports to stakeholders on the mission’s results achieved
during the fiscal year (October 1, 2008, to September 30, 2009, for FY2009) using operational
plan indicators.


                                                                                      12
accomplishments with the specific outputs as defined in the agreements, performance
management plans, and monitoring and evaluation plans. We also conducted interviews
with implementing partners and representatives from the Presidential Agency for Social
Action and International Cooperation (Acción Social) and the Constitutional Court of
Colombia. Site visit locations were judgmentally selected based on document review
and discussions with USAID, the implementers, the Regional Security Office, and certain
logistics requirements. These site visits were conducted in four cities (Bogotá, Cali,
Medellín, and Cartagena) where we interviewed multiple IDP beneficiaries, IDP
beneficiary leaders, and local officials involved in providing IDP services.

To determine whether the mission reported accurate and complete information, we
interviewed mission and implementing partner personnel. We judgmentally selected four
of the eight main results that best represented the specific outputs related to the IDP
program as reported in the FY 2009 Performance Plan and Report and we reviewed the
associated documentation. We also reviewed implementing partner documentation,
such as training lists and employment surveys. In assessing the accuracy of reported
results, we established a materiality threshold of 90 percent. If the reported results could
be verified, and if the difference between reported and documented results was less
than 10 percent, the reported results were judged to be accurate.

In addition, we reviewed applicable policies, procedures, and management controls
related to the management for results, including Automated Directives System chapters
200 and 203. We also evaluated the mission’s compliance with relevant program
management controls and policies.




                                                                                         13
                                                      APPENDIX II



MANAGEMENT COMMENTS



MEMORANDUM                                 January 13, 2011


TO:          RIG/San Salvador, Catherine Trujillo

FROM:        USAID/Mission Director, Ken Yamashita

SUBJECT:     USAID/Colombia Response to RIG Audit of
             Assistance to Internally Displaced Persons and
             Vulnerable Groups - Financed by USAID/Colombia
             (Audit Report No.1-514-11-00x-P)


Please find attached USAID/Colombia’s response to the RIG
Audit of the USAID/Colombia Internally Displaced Persons
and Vulnerable Persons Program.

Please let USAID/Colombia know if you need any
clarifications or additional input.




                                                           14
                 USAID Response to RIG Audit
  “Audit of Assistance to Internally Displaced Persons and
                      Vulnerable Groups”
                       January 12, 2011


Issue # 1: USAID/Colombia Lacks an Indicator That Measures
Progress Toward Stabilization:

“There is currently no performance measure established or
used by USAID/Colombia to measure progress toward IDP
stabilization or improved quality of life. While the IDP
program is providing support in income generation and
access to housing, public education, and public health to
various IDPs (the mission reported that 276,148
beneficiaries received at least one of these services in
fiscal year [FY] 2009), there is limited evidence of
progress toward the overall goal because USAID/Colombia
does not have a clear achievable definition to determine
when stabilization or improved quality of life has
occurred. While it is generally agreed that a displaced
person needs access to the above services, the mission’s FY
2009 Performance Plan and Report (PPR) noted that there is
no process to determine when an IDP is reintegrated and
“graduates” from the Government of Colombia (GOC)
assistance program. Therefore, contingent on the
availability of funds, these IDPs receiving services could
be indefinite beneficiaries of the GOC program.

USAID/Colombia has not developed an appropriate indicator
because USAID/Colombia, the Constitutional Court of
Colombia and the GOC have yet to develop an actionable
definition of reintegration. The GOC’s attempt to develop a
definition led to criteria consisting of 45 separate
indicators that are required for reintegration. Most agree
that this set of criteria, although desirable, is not
practical given the realities on the ground and that an
intermediate level showing significant improvement in the
quality of life is needed in the meantime.

Both USAID/Colombia and implementing partner officials
agree that USAID should develop an indicator that better
tracks a significant improvement in the quality of life of
IDPs and that an intermediate level of progress defined by
the GOC and the Constitutional Court is needed. Realizing
this, USAID is in the process of providing technical
assistance to the Constitutional Court in assessing the


                                                             15
GOC’s progress toward reintegration of IDPs.

However, to be effective, the technical assistance should
include work on a GOC definition of an intermediate level
of progress. Technical assistance should include goals and
deliverables that track the development of a definition of
an intermediate level of progress.” (pp.3-4)

Recommendation 1: We recommend that USAID/Colombia define
and develop its own indicator to determine progress
achieved towards the main goal of stabilization or
significant improvement in the quality of life of
beneficiaries.

Comment:

USAID/Colombia concurs that it should develop its own
indicator to determine progress achieved towards the main
goal of stabilization or significant improvement in the
quality of life of beneficiaries. In early 2010, the
Mission’s Internally Displaced Persons (IDP) Unit began
discussing improvements to its Performance Monitoring Plans
based on the findings and recommendations of the IDP
Program and Future Strategy Assessment carried out between
in January and February and finalized in March 2010. In the
first quarter of the FY 2011, the IDP Unit worked with the
Mission’s new monitoring and evaluation contractor to
develop a new indicator to measure achievement of
intermediate socio-economic stabilization for its IDP
program beneficiaries. The indicator will measure the
effective delivery of an integrated package of essential
and complementary assistance, including food security,
health, education, housing, income generation, as well as
psycho-social assistance to the target beneficiaries (IDP
persons and families). This indicator has already been
incorporated into the FY 2011 work plans of both program
implementers.

The indicator is: Numbers of Families (and Persons) who
have received and benefited from an integrated package of
essential stabilization assistance (to include: income
generation, housing, education, and health assistance and
at least one type of complementary assistance, such as
psycho-social assistance). This will be used as a proxy
indicator for the achievement of an adequate standard of
living as an intermediate level of progress towards
stabilization.


                                                             16
Based on development and incorporation of this indicator
into the current IDP program’s FY 2011-12 work plans,
USAID/Colombia requests that the RIG concur that
appropriate management action has been taken on this
recommendation and close this finding.

Recommendation 2: We recommend that USAID/Colombia, in
coordination with its implementing partners, work with the
Constitutional Court and the Government of Colombia to
develop a Government of Colombia definition of an
intermediate level of stabilization of displaced and
vulnerable persons.

Comment:

USAID/Colombia concurs with the recommendation. The current
indicators used by the Government of Colombia (GOC),
originally developed in response to a Constitutional Court
order, are highly complex, and have been described by
various governmental and non-governmental officials as
“user unfriendly.” Although the indicators have been
referenced and cited in GOC reports to the Constitutional
Court, they do not appear to be used as a key metric by
which either the Court or the GOC measures progress.

USAID/Colombia, in coordination with its implementing
partner, is already working with the Constitutional Court
and the GOC, on this issue. In early 2010, the Mission met
with the Constitutional Court to discuss the need for a
concrete dialogue between the Court and the GOC for the
development of more specific and workable criteria to
define and measure stabilization of displaced and
vulnerable persons. As a result, USAID/Colombia, with its
implementer, the Court and the GOC developed and began
implementation of a project to provide the venue for this
dialogue and an effective methodology for the development
of more precise criteria, definitions, and metrics related
to the stabilization of displaced and vulnerable
populations. The project began in November 2010 and will be
completed in December 2011. The project is providing a
neutral, academic platform for discussion between national
and international technical experts, the GOC and the Court.
The expectation is to bridge the differences in opinions
held by the Court and the GOC and facilitate a
collaborative and effective response to the issue of
stabilization/graduation metrics.


                                                             17
The final result of this project will be an amicus brief
which will be submitted to the Court with technical input
on innovative ways to measure the response of the GOC in
providing sustainable solutions to the vulnerable condition
of the displaced population as related to four key areas:
land, displacement prevention and protection, housing and
income generation.

Given the referenced work already underway with the
Constitutional Court and the GOC, USAID/Colombia requests
that the RIG concur that appropriate management action has
been taken on this recommendation and close this finding.

Issue # 2: USAID/Colombia Lacks a Qualitative Measure for
Institutional Strengthening

“USAID/Colombia lacks a qualitative measure to assess
whether resources dedicated to institutional strengthening
are indeed impacting the targeted sectors (i.e. the local
and national public and private-sector entities). Instead,
USAID/Colombia measures progress by tracking the number of
beneficiaries that benefited from these activities. This
type of indicator measures only outputs.” (p.4)

Recommendation 3: We recommend that USAID/Colombia develop
a qualitative measure that captures improvements of the
institutions receiving institutional strengthening and the
impact.

Comment:

USAID/Colombia concurs in the development of a qualitative
measure that captures improvements of the institutions
receiving institutional strengthening and the impact. The
Mission has already acted upon this recommendation.

The IDP Unit, working closely with the Mission’s new
monitoring and evaluation contractor and implementing
partners, recently developed new indicators to measure
institutional strengthening interventions at the local
level. These indicators have been incorporated into the FY
2011-2012 work plans of the program’s implementing
mechanisms. These indicators measure the various stages of
development of the local Single Integrated Plans (PIU for
its Spanish acronym) for local government assistance to the
displaced population in the municipality. These will serve


                                                             18
as proxy indicators of the qualitative increase in local
government capacity to respond to displaced populations
relocated in their municipalities.

These indicators are:

Number of PIUs in formulation;
Number of PIUs formulated;
Number of PIUs made official through an administrative act;
Number of PIU assistance projects funded and being
implemented.

Based on the development of referenced indicators,
USAID/Colombia requests that the RIG concur that
appropriate management action has been taken on this
recommendation and close this finding.

Issue # 3 – USAID/Colombia is not meeting its stated income
generation goals.

“…income (generation) assistance, as defined by the
indicators in place, is reaching relatively few
beneficiaries: of the 276,148 beneficiaries reported in FY
2009, only 1,833 received job assistance and 1,884 received
vocational training.

Among other things, implementing partners indicated that
targets were not met because certain types of income
generation activities are not accounted for under the
current definition of licit jobs created. For example,
implementing partners are helping IDPs gain part-time
employment, supporting small businesses, and agricultural
or seasonal work. These activities are not incorporat4ed
in the current indicators for income generation if they are
not under a contractual agreement.”

“By not achieving the income generation targets,
USAID/Colombia is not likely to reach its overall goal of
stabilization of IDPs. This is because while a definition
of stabilization or reintegration is not yet available,
based on discussions with beneficiaries, local officials,
USAID/Colombia, and expert opinion, a stable source of
income is a key factor in determining if a displaced person
has stabilized. By limiting the definition of income
generation to vocational training and licit jobs created,
USAID/Colombia may not be focusing on efforts that could be
at least as beneficial as traditional employment.”(pp. 6-7)


                                                           19
Recommendation 4: We recommend that USAID/Colombia
reevaluate income generation efforts to refocus program
indicators and activities on income stabilization and
incorporate characteristics specific to displaced and
vulnerable populations.

Comment:

USAID/Colombia concurs with a reevaluation of the IDP
Program income generation activities and has acted on this
recommendation. The recent program assessment (March 2010)
of the IDP Program provided recommendations and insights
towards this reevaluation and redesign. Specific
recommendations related to adjustments in the income
generation strategy of the program were incorporated into a
technical direction document that was provided to the
current IDP implementing partners (IPs) in September 2010.
This document was subsequently used by the IPs to modify
the program descriptions of their awards for 2011-2012
activities and work plans. The awards are currently in the
process of modification by the Office of Acquisitions and
Assistance.

Specifically, USAID/Colombia advised IDP implementers to
augment income generation activities with a longer period
of intervention (as recommended by the March 2010
Assessment) and complementary assistance, such as psycho-
social assistance that serves to strengthen the likelihood
of success of income generation activities.

The Mission’s new IDP program for the strategic period
through 2014 is currently under design. As a result of the
re-evaluation of income generation efforts, it will
emphasize a stable income as a key component of achieving
socio-economic stabilization for IDPs. The new design and
subsequent solicitation will seek innovative approaches and
proven methodologies for income generation interventions
that can respond to the gender and conflict-specific issues
of Colombia’s displaced and other vulnerable populations.

Based on the Mission’s reevaluation and subsequent
adjustments to its income generation interventions,
USAID/Colombia requests that the RIG concur that
appropriate management action has been taken on this
recommendation and close this finding.



                                                             20
Issue # 4 - USAID/Colombia Reported Inaccurate Performance
Data - :

“…the mission inaccurately reported the actual results
achieved in the FY 2009 PPR for three of the four
indicators reviewed. Specifically, the mission overstated
the number of people benefiting from U.S. Government
support by 29 percent, licit jobs created by 33 percent,
and families with adequate housing by 58 percent.

The over reporting in the FY 2009 PPR was due to a data
entry error. USAID/Colombia keeps track of the standard
indicators internally on a quarterly basis, but
transposition errors were made when this information was
entered into the FY 2009 PPR. However, the mission itself
did have accurate information on these indicators in an
internal spreadsheet. USAID/Colombia is aware of the data
entry errors and is seeking to determine when the PPR
process allows for corrections.”…… (pp.8-9).

Recommendation 5: We recommend that USAID/Colombia adjust
its future performance plan and report to correct
inaccuracies in any reported results in the Fiscal Year
2009 Performance Plan and Report.

Comment:
The Mission concurs with the finding related to inaccurate
reporting of results. However, the Mission was unable to
correct the results data for its FY 2009 Performance Plan
and Report through FACTS. The USAID guidance provided in
the FY 2009 PPR Guidance Document (page 4, section 7)
states that making changes to previous years’ data is not
permitted. The only data formats which were available for
revision through FACTS were those required for FY 2010
reporting.
Despite the Mission’s inability to correct the FY 2009
results, concerted effort was made to ensure that FY 2010
results were accurate, based on the internal information
collected in USAID/Colombia. Results were taken directly
from the internal spreadsheet mentioned in the audit
findings.
In addition, USAID/Colombia is currently reviewing its
internal system of Monitoring and Evaluation and has
contracted Monitoring and Evaluation support for the
Mission’s technical offices. To increase accuracy and
efficiency of data collection and reporting and assure data
quality, the Office of Vulnerable Populations is developing


                                                             21
the Scope of Work for a full-time, staff position for a
Monitoring and Evaluation specialist. This person should
be in place by the third quarter of FY 2011.
Based on the referenced actions taken to improve PPR
Reporting, USAID/Colombia requests that the RIG concur that
appropriate management action has been taken on this
recommendation and close this finding.




                                                          22
                                                                     Appendix III




Figure 1: IOM IDP Program Coverage and Regional Offices (6 regional offices and
IOM headquarters)




                                                                          23
                                                           Appendix III




Figure 2: PADF IDP Program Coverage and Regional Offices




                                                                    24
U.S. Agency for International Development
        Office of Inspector General
       1300 Pennsylvania Ave., NW
          Washington, DC 20523
            Tel: (202) 712-1150
            Fax: (202) 216-3047
            www.usaid.gov/oig
